                           CLOSEOUT of CASE M-00030009




We were informed by a program officer1 that an allegation of plagiarism had
been made against an NSF-funded PI.2 3 The PI, himself, informed the program
officer about this allegation. The PI told us that a colleague4 brought the
allegation against him to his university, but that the allegation was unfounded.
He said this colleague was asked to write a chapter of an NSF-funded document,
but had withheld the chapter until her concerns about authorship issues were
addressed. The PI said his colleague was concerned about whether she would be
listed as the primary author of the chapter, and was unclear about subsequent
use of her chapter by other members of the research team. The PI thought her
concerns were based, in part, on his earlier statements about giving credit to
original sources5 of the information.

With the assistance of the university's grievance officer, the PI and the colleague
settled the matter and signed an agreement that specified how attribution and
authorship would be handled.

This inquiry is closed and no further action will be taken in this case.




CC: IG, Integrity




1
    [Footnote redacted].
    [Footnote redacted].
    [Footnote redacted].
4
    [Footnote redacted].
    [Footnote redacted].


Closeout                             Page 1 of 1                             MOO-09
